No. 19-840

 

IN THE
Supreme Court of the United States

CALIFORNIA, ET AL., Petitioners,
Vv.

TEXAS, ET AL., Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

AMICI CURIAE BRIEF IN SUPPORT OF
PETITIONERS AND REVERSAL BY THE
AMERICAN CANCER SOCIETY ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020.

Lid.
Colin Casey Koen

Wilson-Epes Printing Co., Inc.
